Memorandum from the Office of the Inspector General



December 9, 2010

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2010-13021 – DISTRIBUTOR REVIEW OF
PULASKI ELECTRIC SYSTEM



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, or wish to discuss our findings, please contact Stephanie L.
Simmons, Auditor, at (423) 785-4820 or Melissa M. Neusel, Acting Director, Distributor
Audits, at (865) 633-7357. We appreciate the courtesy and cooperation received from
your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

SLS:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Michael B. Fussell, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Robert A. Morris, WT 7C-K
      Emily J. Reynolds, OCP 1L-NST
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3A-C
      John G. Trawick, WT 3D-K
      Robert B. Wells, WT 9B-K
      OIG File No. 2010-13021
        
 


                                 Audit Report
 
Office
      of the Inspector General                            

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                          

 

 

 

 

 

 
DISTRIBUTOR REVIEW
 

OF PULASKI ELECTRIC
SYSTEM
 




 

 
 
 

 
Audit Team                                Audit 2010-13021
Stephanie L. Simmons                      December 9, 2010
Jessica L. Monroe
Richard C. Underwood
Office of the Inspector General                              Audit Report




ACRONYMS AND ABBREVIATIONS
CSA                        Central Service Association
EGC                        Enhanced Growth Credit
FY                         Fiscal Year
kW                         Kilowatt
kWh                        Kilowatt Hours
OIG                        Office of the Inspector General
S&ER                       Strategy and External Relations
SEDC                       Southeastern Data Corporation
SMC                        Small Manufacturing Credit
TVA                        Tennessee Valley Authority




Audit 2010-13021
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO
   MEMBERS OF THE SAME RATE CLASS ....................................................... 2

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 4

   OTHER CONTRACT COMPLIANCE ISSUES ................................................. 6

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 9

RECOMMENDATIONS .................................................................................. 9


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED SEPTEMBER 23, 2010, FROM R. WESLEY KELLEY TO
   ROBERT E. MARTIN

C. MEMORANDUM DATED DECEMBER 7, 2010, FROM KIMBERLY S.
   GREENE TO ROBERT E. MARTIN




Audit 2010-13021
                   Audit 2010-13021 – Pulaski Electric System
                                 EXECUTIVE SUMMARY

Why the OIG Did This Review

  As part of the annual audit plan, the OIG (Office of the Inspector General) performed a
  review of the Pulaski Electric System, which is a distributor for Tennessee Valley
  Authority (TVA) power based in Pulaski, Tennessee. Annual revenues from electric
  sales were approximately $41 million in fiscal year 2009. Pulaski also provides billing
  services for other city utilities and operates a broadband department that offers cable
  and Internet services. The objective of the review was to determine compliance with key
  provisions of the power contract between TVA and Pulaski.

What the OIG Found

  Our review of Pulaski found improvements were needed in the areas of:

     Customer Classification – We identified 44 customer accounts not classified
      correctly that could impact (1) the proper reporting of electric sales and/or
      (2) nondiscrimination in providing power to members of the same rate class. We
      were able to estimate the monetary effect of the classification issues, and the
      monetary effect on Pulaski and TVA would not be significant.
     Demand Calculation – We found Pulaski overpaid TVA approximately $104,000 for
      demand during the period April 2008 through September 2008. The overpayment
      was the result of an error in a spreadsheet formula used to calculate demand for one
      GSA classification reported on the Schedule 1.
     Contract Compliance – We identified four areas where Pulaski was not meeting the
      power contract requirements with TVA. Specifically, we found (1) costs were not
      allocated for billing services provided to other city departments in accordance with
      the last TVA joint cost study, (2) required applications and TVA approval were not
      obtained for customers receiving about $1.25 million under the Small Manufacturing
      Credit (SMC) program, (3) the Enhanced Growth Credit (EGC) was not calculated
      correctly for all customers, which resulted in errors with credit amounts included on
      the Schedule 1 and applied to customers, and (4) required EGC documentation was
      not maintained.

  In addition, we found Pulaski had enough cash on hand to provide a cash reserve of
  about 8.5 percent, which is slightly above TVA’s established guidelines for adequate
  cash reserves of 5 to 8 percent. We also noted Pulaski used electric system funds to
  pay expenses for the broadband department without TVA’s approval or loan documents
  in place. Without executed loan documents, the electric department has no legal
  recourse to recover amounts expended to fund the broadband department.




                                                                                      Page i
                    Audit 2010-13021 – Pulaski Electric System
                                 EXECUTIVE SUMMARY

  Finally, we identified certain opportunities to enhance TVA’s oversight of the distributors
  that have been reported in previous distributor audits. TVA is in the process of
  addressing these three findings, which include (1) the absence of a joint cost study being
  performed in over 20 years, (2) the lack of an adequately defined process to document
  approval of credits, and (3) providing definitive guidance for distributors on what
  constitutes prudent expenditures.

What the OIG Recommends

  We recommend the Group President, Strategy and External Relations (S&ER), work
  with Pulaski to remediate classification issues and comply with various contract
  provisions related to use of funds and customer credits. In addition, the Group
  President, S&ER, should (1) review amounts associated with the demand calculation
  error and return overpayments to Pulaski, and (2) review the SMC and EGC and recover
  any amounts incorrectly credited to the distributor. Our detailed recommendations can
  be found later in this report.

Management’s Comments

  Pulaski and TVA management generally agreed with our recommendations and have
  taken or are taking actions to address these recommendations. See Appendix B for
  Pulaski’s complete response and Appendix C for TVA’s complete response.

Auditor’s Response

  The OIG concurs with actions taken and planned by Pulaski and TVA to correct the
  identified issues.




                                                                                       Page ii
Office of the Inspector General                                                                 Audit Report


BACKGROUND
The Pulaski Electric System1 is a distributor for Tennessee Valley Authority
(TVA) power based in Pulaski, Tennessee, with revenues from electric sales of
approximately $41 million in fiscal year (FY) 2009. TVA relies on distributors to
self-report customer usage and subsequently the amount owed to TVA
(Schedule 1). Customers are generally classified as residential, commercial,
manufacturing, and lighting. Within these classes are various rate classifications
based on the customer type and usage. Table 1 shows the customer mix for
Pulaski as of June 2009.

                          Pulaski’s Customer Mix as of June 2009
                                                Number of                                    Kilowatt
         Customer Classification                                        Revenue
                                                Customers                                   Hours Sold
    Residential                                       11,618             $18,563,156         177,928,822
    General Power – 50 Kilowatt (kW)
                                                          2,192             3,551,390         28,580,489
    and Under (Commercial)
    General Power – Over 50 kW
                                                            203            18,581,794        203,034,914
    (Commercial or Manufacturing)
    Street and Athletic                                      54               398,839           3,243,358
                     2
    Outdoor Lighting                                         79               334,536           2,838,760
    Unbilled Revenue                                                           36,317
     Total                                              14,146           $41,466,032         415,626,343
                                                                                                    Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Pulaski, like many other distributors, outsources its billing and
invoice processing to a third-party processor, Central Service Association (CSA).
Prior to September 2008, Pulaski outsourced its billing and invoice processing to
Southeastern Data Corporation (SEDC). Pulaski previously used SEDC systems
and currently uses CSA systems to establish and set up new customers, input
customer meter information, perform the monthly billing process, and execute
customer account maintenance. Additionally, SEDC and CSA systems include
management reporting capabilities (e.g., exception reports). All other accounting
and finance responsibilities are handled by Pulaski, which has a Board of
Directors providing oversight and a manager and accountant managing the daily
activities. Pulaski also provides billing services for other city utilities and
operates a broadband department that offers cable and Internet services.


1
     The wholesale power contract is between the “City of Pulaski, Tennessee,” and TVA. The “Pulaski
     Electric System,” a department of the City of Pulaski, manages and operates the electric department for
     the City. We will use “Pulaski Electric System” rather than the “City of Pulaski” in this report.
2
     This customer count excludes those customers who have Outdoor Lighting accounts with Pulaski as well
     as accounts for other services. At June 30, 2009, there were 2,076 of these customers. The kilowatt
     hours (kWh) sold includes all kWh for all accounts.
Audit 2010-13021                                                                                     Page 1
Office of the Inspector General                                                                Audit Report


FINDINGS
Our review of Pulaski found issues involving customer classification and a
Schedule 1 calculation that could impact (1) the proper reporting of electric sales
and/or (2) nondiscrimination in providing power to members of the same rate
class. In addition, we found Pulaski had enough cash on hand to provide a cash
reserve of about 8.5 percent, which is slightly above TVA’s established
guidelines for adequate cash reserves of 5 to 8 percent.

We also found improvements were needed to comply with contract provisions
regarding (1) allocation of certain costs between service departments,
(2) customer applications for credits, (3) calculation of credits, and
(4) maintenance of customer credit documentation. Finally, we have identified
certain opportunities to enhance TVA’s oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS
OF THE SAME RATE CLASS
As discussed below, we identified customer classification issues and an error in
the calculation of the Schedule 1 report that could impact the proper reporting of
electric sales. In addition, the customer classification issues could impact the
ability to ensure nondiscrimination in providing power to members of the same
rate class.3 We were able to estimate the effect of these issues, and the
monetary effect on Pulaski and TVA was not significant. However, correcting
classification issues is important to ensure all customers are placed in the correct
rate classification and charged the same rate as other customers with similar
circumstances.

Customer Classification Issues
We found 44 customer accounts that were not classified properly. Of the
44 accounts, 1 was a commercial customer account classified within the General
Power Rate – Schedule GSA. The GSA schedule is divided into three




3
    Section 5 Resale Rates subsection (a) of the power contract between TVA and Pulaski states that
    “power purchased hereunder shall be sold and distributed to the ultimate consumer without
    discrimination among consumers of the same class and that no discriminatory rate, rebate, or other
    special concession will be made or given to any consumer, directly or indirectly.”
Audit 2010-13021                                                                                    Page 2
Office of the Inspector General                                                                      Audit Report


parts—Part 1, Part 2, and Part 3—based on electric usage and demand,4 and
this customer account was incorrectly assigned within the GSA schedule. The
remaining 43 customer accounts were classified as residential, although they
should have been classified under the GSA schedule. The monetary impact of
the classification issues below would not be significant to Pulaski or TVA.
Specifically, we found:

    One customer account was classified as GSA Part 15 instead of GSA Part 2.
     According to the GSA schedule, a customer should be classified as
     GSA Part 2 if (1) usage is over 15,000 kilowatt hours (kWh), (2) metered
     demand exceeds 50 kW, or (3) contract demand is greater than 50 kW.
     When a customer is moved to GSA Part 2, the customer must remain at that
     classification for 12 months after meeting the Part 2 criteria. This customer
     had metered demand over 50.01 kW at least one month during the audit
     period; therefore, the customer should have been classified as a GSA Part 2
     for the next 12 months.
     Based on information provided by billing agency personnel, the CSA system
     used by Pulaski did not automatically change a customer from GSA Part 1 to
     GSA Part 2 based on metered demand until after demand exceeds 50.499 kW
     rather than the 50 kW as stated under Part 2 of the GSA schedule. This
     customer account was later automatically upgraded to GSA Part 2 by the
     billing system when the demand exceeded 50.499 kW. In response to
     previous audits, CSA modified the billing system to correct this issue.




4
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
5
    Under the General Power Rate – Schedule GSA adopted by Pulaski, customers are classified based on
    the following requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer’s
        monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2010-13021                                                                                           Page 3
Office of the Inspector General                                                                     Audit Report


    Forty-three customer accounts were classified as residential customers
     instead of GSA schedule customers. These accounts consisted of service to
     a commercial business or other separately metered structures, such as barns,
     shops, garages, pumps, etc., which do not qualify as a single family dwelling.
     Pulaski personnel stated they plan to contact the customers and reclassify the
     accounts from residential to commercial (GSA schedule).

Demand Calculation
We found a spreadsheet used by Pulaski to calculate electric sales reported to
TVA contained an error causing demand in one GSA classification to be
overstated on the Schedule 1. The error began in April 2008 and continued until
September 2008 when use of this spreadsheet was discontinued due to a
change in billing agencies. The total impact of the error was an overpayment to
TVA in the amount of approximately $104,000.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses, (2) debt service,
(3) tax equivalent payments, and (4) reasonable reserves for renewals,
replacements, and contingencies. As discussed further below, and on the
following page, we noted Pulaski (1) had enough cash on hand to provide a cash
reserve of about 8.5 percent and (2) used electric system funds to pay for
expenses of the broadband department without TVA approval or loan documents
in place.

Cash Reserves
As of June 30, 2009, Pulaski reported about $3.2 million in its cash and cash
equivalent accounts. According to Pulaski personnel, planned capital
expenditures for FY 2010 were postponed until FY 2011. Table 2 shows
Pulaski’s cash reserves were about 8.5 percent, which is slightly above TVA’s
established guidelines for adequate cash reserves of 5 to 8 percent.6

                          Pulaski’s Cash Accounts and Cash Ratio
                                                               Cash and Cash
                                                                Equivalents
                            FY 2009                                    $3,193,768
                            Cash Ratio                                       8.47%
                                                                             Table 2




6
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash Equivalents_______________________
                           Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2010-13021                                                                                          Page 4
Office of the Inspector General                                                               Audit Report


According to TVA records, over the past five years Pulaski was approved for rate
increases in 2005 and 2006. Table 3 shows the rate increases received by
Pulaski and the cash position and cash ratio at June 30 prior to the effective date
of the rate increase.

              Pulaski’s Rate Increases, Cash Position, and Cash Ratio
      Cash on Hand                Cash and Cash                         Rate Increase8
    Equivalent to an 8%            Equivalents7           Additional
        Cash Ratio                and Cash Ratio                           Percent      Effective Date
                                                          Revenue
                                    $4,211,210
        $2,092,004                                         $691,247         2.34%          10/1/2005
                                  (CR = 16.10%)
                                    $4,431,085
        $2,444,509                                         $179,580         0.61%          10/1/2006
                                  (CR = 14.50%)
                                                                                                  Table 3

Discussions with Pulaski management indicated their operating philosophy is to
consider debt for projects of lasting value or those necessary to respond to
system growth.

Use of Funds for Broadband Business
We found Pulaski (1) used electric system funds to pay for expenses of the
broadband department without approval from TVA and (2) did not have loan
documents in place between the electric department and the broadband
department that specified interest rates, payment amount, and recourse
protections. Without an executed loan document, the electric department has no
legal recourse to recover amounts expended to fund the broadband department.

In 2007, Pulaski established its broadband department. Since 2007, the electric
department has paid for all broadband expenses exceeding revenues in a given
year. The expenses paid by the electric department, on behalf of the broadband
department, were tracked in a separate account. Pulaski personnel informed us
interest was not being charged to the broadband department for use of the
electric system funds. The balance due from the broadband department to the
electric department was highest as of June 30, 2007, at $704,805 and lowest as
of June 30, 2010, at $9,566.

As previously stated, under the TVA power contract, approved uses of revenues
from electric system operations, including any surplus, are (1) operating
expenses, (2) debt service, (3) tax equivalent payments, and (4) reasonable
reserves for renewals, replacements, and contingencies. The TVA power
contract also states Pulaski is prohibited against furnishing, advancing, lending,
pledging, or otherwise diverting electric system funds, revenues, credit, or

7
    The cash and cash equivalents and cash ratio were computed based on information from Pulaski's
    annual report as of June 30 prior to the effective date of the rate increase.
8
    These are the rate increases requested by and approved for the distributor. These increases do not
    include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
    passed through by the distributor to the customer.
Audit 2010-13021                                                                                    Page 5
Office of the Inspector General                                          Audit Report


property to other departments. TVA allows distributors to request approval to
use electric funds for nonelectric purposes. If approved, TVA and the distributor
put appropriate protections in place, such as a joint use agreement and loan
agreement.

In March 2008, Pulaski sought approval from TVA for the electric department to
loan the broadband department up to $2,000,000 to be used for capital
expenditures and working capital. However, Pulaski personnel decided the loan
would not be necessary and did not pursue approval from TVA. Pulaski
personnel stated no formal loan or line of credit agreements with interest rates,
payment terms, electric department recourse, etc., had been established
between the electric department and the broadband department.

OTHER CONTRACT COMPLIANCE ISSUES
We noted four instances where Pulaski was not meeting the requirements of the
power contract with TVA. Specifically, we found Pulaski did not (1) allocate
certain costs to other city departments in accordance with the last TVA joint cost
study, (2) obtain required applications for customers receiving the Small
Manufacturing Credit (SMC), (3) correctly calculate the Enhanced Growth Credit
(EGC) for all customers, and (4) maintain required EGC documentation. Below
is further discussion on these items.

Allocation of Joint Costs
We found Pulaski did not allocate joint costs in accordance with the last TVA joint
cost allocation study, which occurred in 1988. Specifically, the joint cost study
addressed how costs associated with billing services provided for other city
departments should be charged to the city. The 1988 joint cost study set an
amount to be charged to the city for each bill sent and collected on behalf of the
water, sanitation, and natural gas departments. In 2007, Pulaski negotiated with
the city to increase the per bill amounts by 3 percent; however, TVA has not
approved the increase. Under the power contract, the distributor is allowed to
“use property and personnel jointly for the electric system and other operations,
subject to agreement between Municipality and TVA as to appropriate
allocations.”

When Pulaski entered into the broadband cable and Internet business in 2007, a
cost allocation manual was prepared by Pulaski and approved by TVA for the
allocation of costs between the electric and broadband departments. We found
the allocations between the electric and broadband departments appeared
reasonable and were consistently applied.




Audit 2010-13021                                                              Page 6
Office of the Inspector General                                                               Audit Report


SMC Applications
We found all seven customers receiving the SMC did not complete the required
application for the credit, and Pulaski did not obtain TVA approval that the
customer was eligible to receive the credit. According to Pulaski personnel, the
distributor did not require applications for the SMC, and the credit was
automatically applied if a customer’s demand exceeded 1,000 kW in a given
month. Under the agreement between Pulaski and TVA, “credits shall not be
allowed by distributor for any account until a completed application is received
and approved by TVA.” According to the Schedule 1s for the audit period, the
seven customers received credits totaling $1,250,131. Without the completed
application, we were unable to determine if any of the customers would not have
been eligible for the credit and if so, the amount that was improperly credited to
the customer by Pulaski and to Pulaski by TVA.

EGC Calculation
We found the EGC was calculated incorrectly for six of the seven customers
receiving the credit, which resulted in Pulaski (1) including about $4,400 in
credits on the Schedule 1s that were not due and (2) applying an estimated total
of $4,000 in credits that were not due to customers. In addition, we noted during
the period October 2008 through March 2009 Pulaski may have (1) included
about $7,800 in credits on the Schedule 1s that were not due and (2) applied
approximately $7,100 in credits that were not due to customers. Specifically, we
found:

     The EGC agreement states the credit is applied to each kW of actual firm
      demand,9 excluding any kW in excess of contract demand.10 Pulaski
      personnel stated their understanding of the application of the credit was if a
      customer’s metered demand11 exceeded the contract demand, then the
      customer was not eligible to receive any of the EGC for that month.
      Therefore, when one customer had metered demand exceeding their contract
      demand, Pulaski did not give the customer credit for the portion of actual firm
      demand that was not in excess of the contract demand. We estimated over
      the audit period Pulaski should have (1) included an additional $4,900 in
      credits on the Schedule 1s and (2) applied an additional $4,500 in credits to
      the customer.




9
     According to the EGC agreement between Pulaski and TVA, actual firm demand under standard service
     is equal to the highest billing demand for firm power in any month computed under the Power Supply
     Contract but without regard to the exception language (Demand Ratchet) set out in the section headed
     “Determination of Demand” of that rate schedule. Firm power is defined as “power or power producing
     capacity intended to be available at all times during the period covered by a commitment to deliver.”
10
     According to the EGC agreement between Pulaski and TVA, contract demand is the amount of firm
     power made available to a customer under the customer's power contract.
11
     Under the General Power Rate – Schedule GSA adopted by Pulaski, metered demand for any month
     shall be the highest average during any 30-consecutive-minute period of the month of the load metered
     in kW.
Audit 2010-13021                                                                                    Page 7
Office of the Inspector General                                            Audit Report


   The EGC was calculated incorrectly for five additional customers for the
    month of September 2008. The EGC was applied to these customers’
    metered demand instead of their actual firm demand. Additionally, the
    incorrect per kW credit amount was applied for two of these five customers.
    Pulaski personnel stated the errors were caused by the billing agency
    transition from SEDC to CSA and were corrected the following month.
    According to the EGC agreement between Pulaski and TVA, in the event that
    information becomes available, which establishes that any retail credits were
    incorrectly applied to a customer’s bill for any reason, the distributor and TVA
    shall fully cooperate in (1) making appropriate adjustments to the retail power
    bill, (2) endeavoring to collect from the customer any amounts due as a result
    of the adjustment to the retail bill, and (3) making appropriate adjustments to
    the wholesale power bill to pass through to TVA amounts collected from the
    customer.
    Pulaski did not request refunds of the erroneous credit amounts from
    customers. We estimated in September 2008 Pulaski (1) included about
    $11,600 in credits on the Schedule 1 that were not due and (2) applied about
    $10,600 in credits to customers that were not due.
   For one of the five customers noted above, the EGC was not applied in
    accordance with the effective date of the customer’s participation agreement.
    The effective date of the participation agreement was November 2004;
    however, Pulaski began applying the credit in October 2004. The customer
    chose an eight-year declining credit where the credit amount per kW is
    decreased annually. Therefore, application of the annual adjustment to the
    credit amount was made one month early each October. We estimated over
    the audit period Pulaski should have (1) included an additional $2,300 in
    credits on the Schedule 1s and (2) applied an additional $2,100 in credits to
    customers.
   Pulaski may have miscalculated the EGC during the period October 2008
    through March 2009. Our recalculation of the EGC indicated Pulaski may
    have (1) included about $7,800 in credits on the Schedule 1s that were not
    due and (2) applied about $7,100 in credits to customers that were not due.
    Pulaski management is researching the cause of the discrepancy.

Pulaski is investigating the issues noted and/or whether adjustments were made
to the Schedule 1 to return credits incorrectly applied to TVA.

EGC Documentation
Pulaski did not maintain the required participation agreement for one of the
seven customers receiving the EGC. According to the EGC agreement between
Pulaski and TVA, the distributor shall enter into a participation agreement with
each qualifying customer. The participation agreement includes necessary
information for calculation of the credit and a certification of the customer’s
eligibility. We noted the remaining documentation necessary to receive the credit
and other eligibility requirements were met for this customer.

Audit 2010-13021                                                                Page 8
Office of the Inspector General                                                Audit Report


TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA’s oversight of this distributor; however,
the issues noted for this distributor were the same as those reported in previous
Office of the Inspector General (OIG) distributor reports. Specifically, we noted
TVA has not:

   Performed a joint cost study in over 20 years when the TVA Accountant’s
    Reference Manual calls for one to be performed every three to four years or
    when major changes occur that affect joint operations.
   Adequately defined the process for granting the SMC to ensure proper
    documentation, including evidence of approval, is submitted and maintained.
   Provided definitive guidance for distributors on what constitutes prudent
    expenditures.

In response to the previous reports, TVA agreed to take corrective actions on
these issues. Full discussion of these issues and TVA’s planned actions can be
found in prior OIG distributor reports on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations (S&ER),
work with Pulaski to improve compliance with the contract. Specifically, Pulaski
should:

1. Correct customer misclassifications identified and implement procedures to
    assist in identifying accounts that need to be reclassified as commercial when
    service starts or changes to a nonresidential type (i.e., business or a
    separately metered structure).

    Pulaski's Response – Pulaski conducted field inspections and notified
    customers that their accounts are being moved to GSA Part 1 where
    applicable. Pulaski also stated controls are in place to determine the
    appropriate classification for new facilities, and they believe it is unlikely this
    error will be common in the future. See Appendix B for Pulaski's complete
    response.

    TVA Management’s Comments – TVA agreed that electric service should
    be provided in accordance with the availability provisions of the rate
    schedules. The target completion date for this is September 2011. See
    Appendix C for TVA’s complete response.

    Auditor's Response – The OIG concurs with the actions taken by Pulaski.




Audit 2010-13021                                                                    Page 9
Office of the Inspector General                                           Audit Report


2. Request approval from TVA to use electric system funds for support of the
   broadband department.

    Pulaski's Response – Pulaski is working with TVA to execute an agreement
    that fully complies with the requirements of the wholesale power contract.
    See Appendix B for Pulaski's complete response.

    TVA Management’s Comments –TVA stated that if the distributor proposes
    to use electric system funds for the purposes set forth in the power contract,
    TVA would be happy to work with the distributor to put in place agreements to
    help prevent misuse of electric system funds or assets in violation of the
    standard power contract provisions and to ensure compliance with the
    standard use of revenues provisions in Section 6 of the power contract and
    other standard provisions of the power contract. The target completion date
    for this is September 2011. See Appendix C for TVA’s complete response.

    Auditor's Response – The OIG concurs with the planned actions.

3. Execute loan documents between the electric department and broadband
   department that include interest rates to be paid by the broadband
   department, terms for payback, recourse available to the electric department
   if the broadband department is unable to make payment on a timely basis,
   and any other protections necessary to protect involved parties including the
   electric rate payer.

    Pulaski's Response – Pulaski is working with TVA to execute a loan
    agreement that includes interest on the funds owed to the electric division.
    See Appendix B for Pulaski's complete response.

    TVA Management’s Comments – TVA agreed that to the extent that such
    loans are an appropriate investment of the electric department’s reserve
    funds, the distributor should execute loan documents to cover the terms
    under which the loan from the electric department to the broadband
    department is being made. TVA and Pulaski had started to process a loan
    request from the electric division to the broadband division. This process will
    be restarted, and formal approval as well as loan documents will be executed.
    The target completion date for this is September 2011. See Appendix C for
    TVA’s complete response.

    Auditor's Response – The OIG concurs with the planned actions.

4. Obtain proper documentation for any customers receiving credits under a
   TVA credit program, such as the SMC and EGC.

    Pulaski's Response – Pulaski is working with customers to complete the
    SMC applications. Pulaski also will work with TVA on how to best resolve
    missing EGC documentation. See Appendix B for Pulaski's complete
    response.
Audit 2010-13021                                                             Page 10
Office of the Inspector General                                           Audit Report


    TVA Management’s Comments – TVA agreed that the distributor should
    obtain proper documentation for customers receiving credits under a TVA
    credit program, such as the SMC and EGC. The target completion date for
    this is September 2011. See Appendix C for TVA’s complete response.

    Auditor's Response – The OIG concurs with the planned actions.

5. Implement a process to ensure the EGC is calculated in accordance with
   customer agreements.

    Pulaski's Response – Pulaski has contacted its billing agency and confirmed
    the EGC is calculated using the customer's measured demand. In addition,
    Pulaski believes the reported miscalculations revolve around the fact that
    Pulaski initiated EGCs on the month listed as the first eligible month on the
    TVA award letter, which is a different month than the effective date on the
    customer's EGC Participation Agreement. See Appendix B for Pulaski's
    complete response.

    TVA Management’s Comments – TVA agreed that the distributor should
    calculate the EGC in accordance with customer agreements. The target
    completion date for this is September 2011. See Appendix C for TVA’s
    complete response.

    Auditor's Response – The OIG concurs with the actions taken by Pulaski.

The Group President, S&ER, should:

6. Review amounts associated with the demand calculation error and return
   overpayments to Pulaski.

    TVA Management’s Comments – TVA agreed that any billing amounts
    incorrectly calculated should be reviewed and credited/debited correctly to
    parties affected. TVA has reviewed the demand calculation, and the demand
    calculation error resulting in an overpayment to TVA has been corrected. See
    Appendix C for TVA’s complete response.

    Auditor's Response – The OIG concurs with the actions taken by TVA.

7. Review the SMC and EGC and recover any amounts incorrectly credited to
   Pulaski.

    TVA Management’s Comments – TVA agreed that any SMC and EGC
    calculations incorrectly calculated should be reviewed and credited/debited
    correctly to parties affected. The target completion date for this is September
    2011. See Appendix C for TVA’s complete response.

    Auditor's Response – The OIG concurs with the planned actions.

Audit 2010-13021                                                             Page 11
                                                                       APPENDIX A
                                                                        Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between the
Tennessee Valley Authority (TVA) and Pulaski Electric System including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained Pulaski electronic billing information from Southeastern Data
    Corporation and Central Service Association (CSA) for the audit period. The
    information was not complete because CSA does not maintain historical rate
    information for inactive customers. We used the information available to
    generate reports of exceptions related to classification and metering and
    conducted further review of documentation or discussed with management.
   Limited our work on internal controls to those control deficiencies identified as
    contributing to noted instances of noncompliance with the power contract
    and/or the TVA Act.
   Determined through inquiry and review of documentation whether Pulaski had
    any nonelectric, system-related business interests supported by electric
    system funds.
   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
   Used nonstatistical sampling methods as needed to perform the tests above.

When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor considered in determining an item’s
significance is whether the item exceeds 3 percent of the average annual
purchased power from TVA for the audit period. Also for the purposes of this
audit, we considered any errors identified as systemic or intentional as
significant.
                                                                  APPENDIX A
                                                                   Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
The scope of the review was for the period July 2007 through June 2009.
Fieldwork was conducted May 2010 through July 2010. This performance audit
was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDIX B
 Page 1 of 3
APPENDIX B
 Page 2 of 3
APPENDIX B
 Page 3 of 3
